E. Mark Braden
direct dial: 202.861.1674
mbraden@bakerlaw.com

CERTIFICATE OF SERVICE
I, Efrem Mark Braden, a member of the Bar of the Supreme Court of the United
States, certify that one original with two copies of the Application To Extend the
Time To File a Jurisdictional Statement with appendix for Steve Chabot, et al. v.
Ohio A. Philip Randolph Institute et al. will be sent by courier for hand delivery to
the Supreme Court of the United States and, per Supreme Court Rule 29.3, a single
copy of the application with appendix was sent by a third-party commercial carrier
for delivery within 3 calendar days and by e-mail to the following parties listed
below, this 10th day of June, 2019:
T. Alora Thomas-Lundborg
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad St.
18th Floor
New York, NY 10004
(212) 519-7866
athomas@aclu.org

Benjamin M. Flowers
STATE SOLICITOR OF OHIO
30 East Broad Street,
17th Floor
Columbus, Ohio 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov
Counsel for Applicants

Counsel for Respondents

All parties required to be served under Supreme Court Rule 29 have been served.
I further declare under penalty of perjury that the foregoing is true and correct.
This certificate is executed this day, June 10, 2019.
/S/ E. Mark Braden
E. MARK BRADEN
UNITE STATES SUPREME COURT BAR NO. 153028
BAKER & HOSTETLER, LLP
1050 Connecticut Ave., NW
Suite 1100
Washington, DC 20036
(202) 861-1674
mbraden@bakerlaw.com

